<html>
<title> - HONORING THE 111TH ANNIVERSARY OF THE INDEPENDENCE OF THE PHILIPPINES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 HONORING THE 111TH ANNIVERSARY OF THE INDEPENDENCE OF THE PHILIPPINES

=======================================================================

                                 MARKUP

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                            H. Con. Res. 153

                               __________

                            OCTOBER 14, 2009

                               __________

                           Serial No. 111-50

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
 52-851PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York
               Lisa Williams, Subcommittee Staff Director
           Daniel Bob, Subcommittee Professional Staff Member
             Nien Su, Republican Professional Staff Member
                       Vili Lei, Staff Associate









                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Con. Res. 153, Honoring the 111th anniversary of the 
  indepencence of the Phiippines.................................     2
  Amendment in the Nature of a Substitute to H. Con. Res. 153 
    offered by the Honorable Laura Richardson, a Representative 
    in Congress from the State of California.....................     4

                                APPENDIX

Markup notice....................................................     8
Markup minutes...................................................     9

 
 HONORING THE 111TH ANNIVERSARY OF THE INDEPENDENCE OF THE PHILIPPINES

                              ----------                              


                      WEDNESDAY, OCTOBER 14, 2009

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. The subcommittee will come to order.
    Pursuant to notice, I now call up House Concurrent 
Resolution 153.
    Without objection, the amendment in the nature of a 
substitute before the members will be considered as the base 
text.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Faleomavaega. For purposes of amendment, it will be 
considered as read. It will be open for amendment at any point.
    I recognize myself for 5 minutes to explain the amendment 
in the nature of a substitute.
    This amendment makes a technical correction to House 
Concurrent Resolution 153, sponsored by my good friend, the 
gentlelady from California, Ms. Richardson, which recognizes 
the historic significance of the Philippines Declaration of 
Independence of 1898. The Declaration was signed by 98 persons, 
including one American.
    Though independence was short-lived--since under the Treaty 
of Paris of December 1898 Spain ceded the Philippines to the 
United States--the Philippines still marks its move to 
sovereign status based on its 1898 Declaration of Independence.
    While from the start, the United States acknowledged 
Philippine aspirations for independence, it was not until 1916 
when the U.S. stated its intent to grant Philippine 
independence once a stable government was established. 
Unfortunately, the process took longer than expected. And with 
World War II, it was not until 1946 that the Philippines 
reemerged as a sovereign state.
    But over the past 111 years, the Philippines has become one 
of America's closest friends and allies, and the bilateral 
relationship is one of our most important.
    Today, the Philippine-American community is the second-
largest Asian community in the United States. Two years ago, 
the U.S. Census Bureau reported that there were approximately 
3.1 million Filipino Americans in this country. I think all of 
us appreciate the enormous contributions made by the Filipino 
American community to the United States.
    So we honor Filipino Americans, the people of the 
Philippines, and the U.S.-Philippines relationship with this 
resolution. I urge all of my colleagues to support this 
legislation.
    And now I turn to the ranking member to express his views 
on this legislation.
    Mr. Manzullo. Mr. Chairman, I agree entirely with what you 
stated. I adopt your remarks as mine.
    Mr. Faleomavaega. The gentleman from California?
    Mr. Sherman. I support the resolution.
    It is my understanding that this is designed to applaud our 
friends in the Philippines and to commemorate the close 
relationship we currently have with the Philippines.
    There is nothing in this resolution that is designed to 
allow anyone to argue that any action taken by the U.S. 
Governor of the Philippines from 1898 through 1948 is somehow 
invalid or to have any legal effect on landownership or 
contracts. This is a resolution of friendship and history, not 
designed to have any legal effect in any court.
    And I hope the chairman agrees with that interpretation.
    Mr. Faleomavaega. I thank the gentleman for his comments.
    Are there any other comments on the amendment?
    I thank the gentlemen.
    The question occurs on the amendment in the nature of a 
substitute, as amended.
    All in favor will say, ``Aye.''
    Opposed, say, ``No.''
    The ayes have it, and the amendment is agreed to.
    Without objection, I move the favorable recommendation of 
House Concurrent Resolution 153, as amended, to the House. The 
question occurs on the motion by the gentleman to report House 
Concurrent Resolution 153, as amended, to the House.
    All in favor, say, ``Aye.''
    All opposed, say, ``No.''
    The ayes have it. The motion is adopted.
    Without objection, the bill will be reported as a single 
amendment in the nature of a substitute incorporating any 
amendments adopted by the committee. Staff is directed to make 
any technical and conforming amendments.
    [Whereupon, at 2:15 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
